   Oversight Review        October 9, 2008


Quality Control Review of Naval Audit Service's
        Special Access Program Audits

          Report No. D-2009-6-001
       Additional Copies

       To obtain additional copies of the final report, visit the Web site of the Department
       of Defense Inspector General at www.dodig.mil/audit/reports or contact the Office
       of the Assistant Inspector General for Audit Policy and Oversight at (703)
       604-8760 or fax (703) 604-9808.

       Suggestions for Future Reviews

       To suggest ideas for or to request future reviews, contact the Office of the Assistant
       Inspector General for Audit Policy and Oversight at (703) 604-8760
       (DSN 664-8760) or fax (703) 604-9808. Ideas and requests can also be mailed to:

                                          OAIG-APO
                            Department of Defense Inspector General
                              400 Army Navy Drive (Room 1017)
                                  Arlington, VA 22202-4704

       Defense Hotline

       To report fraud, waste, or abuse, contact the Defense Hotline by calling
       (800) 424-9098; by sending an electronic message to Hotline@dodig.mil; or by
       writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
       identity of each writer and caller is fully protected.




Acronyms
AAA                    Army Audit Agency
GAS                    Government Auditing Standards
IG                     Inspector General
NAS                    Naval Audit Service
PCIE                   President’s Council on Integrity and Efficiency
SAP                    Special Access Programs
                                    nj;:'~AUTA&~="I"l'   OF OEF:EN~~!=
                                     400 ARMY NAVY DRIVE
                                            VIRGINIA "<:!,,02--47(}4




MEMORANDUM FOR AUDITOR GENERAL, DEPARTMENT OF THE NAVY

SUBJECT: Quality Control Review of Naval Audit Service's Special               Cl.."''''~~);:'   Program
         Audits (Report No. D-2009-6-00 1)

       We are providing this report for your information and use.              reviewed the
       Audit Service's (NAS)                  of quality control over Special        Programs
       audits for the two               ended September 30, 2007. The Government Auditing
                    "'"1'.UL'"J that an audit                performing audits and/or att(~stalt10n
em~ag;elTlents in accordance with              should have an appropriate internal quality control
                       ~ .. ~.~.,..,~ an         peer         at      once                   by
                                 the
Appendix A. Comments, Observations, and
            Recommendations
We are issuing an unmodified opinion because we determined that the NAS quality control
system is adequately designed and functioning as prescribed. The concerns we identified with
the findings, conclusions, or recommendations during our review of the selected NAS audit
reports were not cumulatively significant enough to indicate that material deficiencies existed in
the NAS quality control system for complying with GAS. Because of the timeframe of the audit
reports in our review, we measured the audits for compliance with the 2003 revision of the GAS
and the July 2006 NAS Audit Handbook. We identified issues that are still applicable even
when we apply the updated 2007 revision of GAS and the May 2008 NAS Audit Handbook.

Although the concerns we identified did not affect our overall opinion, there were areas where
NAS could improve the quality control process. We originally judgmentally selected three audit
reports issued during a two year time period ending September 30, 2007; however, we were only
able to review two of the audit reports because of additional security requirements for one of the
reports in the original sample. We tested the reports for compliance with GAS and NAS audit
policies in nine areas to include independence, professional judgment, competence, audit
planning, supervision, evidence and audit documentation, reporting, non-audit services, and
quality control. We identified minor discrepancies in three of the nine areas in our review in
applying NAS audit policy relating to:

   •   audit planning,

   •   evidence and documentation, and

   •   quality control.

Audit Planning. GAS 7.41 (2003 Revision) states that a written audit plan should be prepared
for each audit. The form and content of the written audit plan will vary among audits but should
include an audit program or project plan, a memorandum, or other appropriate documentation of
key decisions about the audit objectives, scope, and methodology and of the auditors’ basis for
those decisions. It should be updated as necessary, to reflect any significant changes to the plan
made during the audit. In addition, GAS 7.42 states that documenting the audit plan is an
opportunity for the auditors to supervise audit planning.

NAS Audit Handbook (July 2006, Section 406) requires that a survey plan/program will be
developed early in the audit to gather the information that will, in turn, comprise the content of
the formal survey debrief. NAS Audit Handbook (July 2006, Section 415, paragraph 2) requires
that the responsible Associate Director must approve the audit program before the start of the
audit verification phase.




                                                2
We found that NAS did not adequately plan for one of the two audits in our review. One audit in
the review was an audit assist, and an audit plan had not been prepared. The audit files for this
report also did not include documentation to indicate why an audit plan had not been prepared.
For another audit in our review, a survey program had been prepared, but we could not determine
the date that the survey program had been prepared. The steps for the survey were included as
part of the audit program. While there were no dates to indicate when the auditors prepared the
survey program, there was documentation in the files to show that survey steps were completed,
and the auditors presented their results of the survey phase in a ninety day survey debrief to NAS
management.

        Recommendation: We recommend that the Auditor General of the Navy issue a
memorandum to remind all SAP audit personnel of the importance of complying with
established guidance for preparing survey and audit programs early in the audit.

        Management Comments. The Auditor General concurred with the recommendation and
stated that an e-mail will be sent to the audit staff to remind them of the importance of complying
with the established guidance for preparing survey and audit programs early in the audit.

       Reviewer Response. Management comments are responsive.

Evidence and Documentation. GAS 7.66 (2003 Revision) states that auditors should prepare
and maintain audit documentation. GAS 7.66 also states that audit documentation should
contain support for findings, conclusions, and recommendations before auditors issue their
report.

NAS Audit Handbook (July 2006, Section 501) reiterates the GAS by stating that auditors should
prepare and maintain audit documentation, and the audit documentation should contain support
for findings, conclusions, and recommendations before auditors issue their report.

We judgmentally selected ten facts and/or figures from the working papers for one of the audit
reports in our review. We found that all of the ten facts and/or figures were supported and
included working paper elements such as purpose, source, scope, and conclusion as required in
the NAS Audit Handbook. For the other audit report in our review, we judgmentally selected
fifteen facts and/or figures in the audit report. We reviewed the supporting working papers for
evidence and documentation and supervisory reviews. We found that one of the figures had not
been properly updated in the working paper after the independent reference review. While the
auditor did not properly update the working paper to reflect the change, the updated figure was
corrected in the audit report. Though the information was not properly documented, it did not
have a significant impact on the results or the conclusions presented in the report.

In addition, we were unable to locate a working paper in the audit files that supported at least
two facts/figures in the audit report. The facts relating to the working paper did not have a
significant impact because they did not affect the results and conclusions addressed in the report.




                                                 3
        Recommendation: We recommend that the Auditor General of the Navy issue a
memorandum to remind all SAP audit personnel of the importance of complying with
established guidelines for documenting evidence to include maintaining information in the audit
files and updating audit work included in the audit reports.

        Management Comments. The Auditor General concurred with the recommendation and
stated that an email will be sent to the audit staff to remind them of the importance of complying
with established guidelines for documenting evidence to include maintaining information in the
audit files and updating audit work included in the audit reports.

       Reviewer Response. Management comments are responsive.

Quality Control. GAS 3.49 (2003 Revision) requires that each audit organization performing
audits and/or attestation engagements in accordance with GAS should have an appropriate
internal quality control system in place. Also, GAS 3.51 states that each audit organization
should prepare appropriate documentation for its system of quality control to demonstrate
compliance with its policies and procedures.

NAS Audit Handbook (July 2006, Section 857) states that editors perform a mandatory check to
ensure that draft reports conform to the reporting standards for content and style. The editor
provides copies of a completed guide sheet to the applicable Program Manager, Associate
Director, and Assistant Auditor General who are responsible for making the appropriate
corrections. The Program Manager and/or Associate Director should ensure the completed guide
sheets are included in the audit files.

The NAS used quality control procedures such as supervisory initials and dates on working
papers, and independent reference reviews for draft and final audit reports. One of the audits in
our review was an audit assist which used a letter report format. The audit files did not contain a
checklist identifying the editor’s review. The NAS had not developed an editor’s guide sheet for
letter reports. The AAA recommended in their FY 2008 peer review of the NAS non-SAP audits
for the NAS to develop an editor’s guide sheet for letter reports. The NAS management
commented that they would develop an editor’s guide sheet for letter reports, attestation reports,
and opinion reports. In response to the AAA recommendation, the NAS editor’s have developed
a draft of the editor’s guide sheet for letter reports. They are currently in the process of refining
the draft guide sheet for use by editors for letter reports, attestation reports, and opinion reports.




                                                  4
Appendix B. Scope and Methodology
We limited our review to the adequacy of NAS SAP audits’ compliance with quality policies,
procedures, and standards. We originally judgmentally selected three SAP audits from a
universe of formal reports issued by NAS SAP auditors during FY 2006 and FY 2007, but
limited our review to two audits because of additional security requirements for access to the
third report. We tested each audit for compliance with the NAS system of quality control. The
AAA conducted a review of the NAS internal quality control system for non-SAP audits and/or
attestation engagements and has issued a separate report. The Acting Assistant Inspector
General for Audit Policy and Oversight will issue an overall opinion report on the NAS internal
quality control system that will include the combined results of the SAP and non-SAP audit
reviews.

In performing our review, we considered the requirements of quality control standards and other
auditing standards contained in the 2003 Revision of the GAS issued by the Comptroller General
of the United States. GAS 3.52 states:

       The external peer review should determine whether, during the period under review, the reviewed audit
       organization’s internal quality control system was adequate and whether quality control policies and
       procedures were being complied with to provide the audit organization with reasonable assurance of
       conforming with applicable professional standards. Audit organizations should take remedial, corrective
       actions based on the results of the peer review.

We conducted this review in accordance with standards and guidelines established in the April
2005 President’s Council on Integrity and Efficiency (PCIE) “Guide for Conducting External
Peer Reviews of the Audit Operations of Offices of Inspector General.” We used a modified
guide to ensure consistency with the AAA review of non-SAP audits, and to reflect the unique
nature of auditing within a SAP environment. We reviewed audit documentation, interviewed
NAS auditors, and reviewed NAS internal audit policies. We reviewed the DoD OIG
Report No. D-2005-6-010, “Quality Control Review of the Naval Audit Service’s
Special Access Program Audits” dated September 2, 2005, and the AAA’s Letter of Comments
on the Fiscal Year 2008 External Quality Control Peer Review of the Naval Audit Service,
Report: A-2008-0115- PMZ dated June 12, 2008. We performed this review from
July to September 2008 at one NAS field office.

We used the following criteria to select the audits under review:

   •   Worked backward starting with the FY 2007 audits in order to review the most current
       quality assurance procedures in place.

   •   Avoided audits with multiple SAPs associated with the audits for ease of access.

   •   Avoided audits that have the same or similar titles, to ensure review of multiple types of
       projects.



                                                      5
The following table identifies the specific reports reviewed.

   Report Number                   Date                               Title

N-2006-0046                September 21, 2006         National Security Agency Military
                                                      Interdepartmental Purchase Request
N-2007-0049                  January 30, 2007         Intelligence Related Contracts (IRC)


Limitations of Review. Our review would not necessarily disclose all weaknesses in the system
of quality control or all instances of noncompliance with it because we based our review on
selective tests. There are inherent limitations in considering the potential effectiveness of any
quality control system. In performing most control procedures, departures can result from
misunderstanding of instructions, mistakes of judgment, carelessness, or other human factors.
Projecting any evaluation of a quality control system into the future is subject to the risk that one
or more procedures may become inadequate because conditions may change or the degree of
compliance with procedures may deteriorate.




                                                  6
Appendix C. Naval Audit Service Comments




                     7
8
